OIG Audit Report GR-50-06-005

Office of Justice Programs Methamphetamine Hot Spot Grant Administered 
 by the Missouri Department of Natural Resources, Jefferson City, Missouri

Audit Report GR-50-06-005


May 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Methamphetamine “Hot Spot” grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to the Missouri Department of Natural Resources (MDNR), located in Jefferson City, Missouri.  The objectives of the grant were to:  (1) reduce the amount of down time that law enforcement agencies experienced after a drug lab seizure while waiting on disposal contractors to respond to a drug lab site, and (2) continue to provide law enforcement with a safe and legal place to store clandestine drug lab chemicals.  Grant funds were also used to train law enforcement personnel how to properly transport chemicals to a collection station for temporary storage, processing, and disposal.
The MDNR was awarded a grant (with one supplement) totaling $1.6 million to assist its Environmental Emergency Response section in the management, control, and disposal of chemicals related to clandestine drug labs.  This included training law enforcement, hazardous materials teams, and fire department officials in the safe and proper techniques of handling clandestine drug lab chemicals.  As of October 5, 2005, the MDNR had been reimbursed $1,382,570 of the $1.6 million in grant funds awarded.  
We reviewed the MDNRs accomplishment of grant objectives and tested the MDNRs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  We found that that the grantee appeared to be meeting grant objectives and that the grantees controls over grant activities and expenditures was generally adequate.  However, our audit identified isolated instances of unallowable grant expenditures totaling $1,799.  We also identified weaknesses in grant reporting.  
Our report contains three recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.